No. 20-107

In the Supreme Court of the United States
CEDAR POINT NURSERY AND FOWLER PACKING COMPANY, INC.,
PETITIONERS
u.
VICTORIA HASSID, IN HER OFFICIAL CAPACITY AS CHAIR OF THE AGRICULTURAL LABOR
RELATIONS BOARD, ET AL., RESPONDENTS
CERTIFICATE OF SERVICE
I, as a member of the Supreme Court bar, certify that on January 7, 2021, three
copies of the Brief for the Chamber of Commerce of the United States of America as
Amicus Curiae in Support of Petitioners in the above-captioned case were served by
U.S. Mail, as required by U.S. Supreme Court Rule 29.5(c), on the following:
JOSHUA PAUL THOMPSON
Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
Counsel for Petitioners
JOSHUA PATASHNIK
California Department of Justice
455 Golden Gate Ave.,
Suite 11000
San Francisco, CA 94102
Counsel for Respondents
The following email addresses have also been served electronically:
jthompson@pacificlegal.org
josh.patashnik@doj.ca.gov

Steffen N. Johnson
Wilson Sonsini Goodrich & Rosati
Counsel for Amicus Curiae

